No. 20-1596
IN THE SUPREME COURT OF THE UNITED STATES
_________________
TAYLOR LOHMEYER LAW FIRM P.L.L.C., PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION via e-mail and first-class mail,
postage prepaid, this 16th day of August 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5,776 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
August 16, 2021

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 16, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-1596
TAYLOR LOHMEYER LAW FIRM PLLC
USA

STEVEN JON KNIGHT
CHAMBERLAIN, HRDLICKA,WHITE,
WILLIAMS & AUGHTRY, PC
1200 SMITH STREET
SUITE 1400
HOUSTON, TX 77002
713-658-1818
STEVEN.KNIGHT@CHAMBERLAINLAW.COM
STEVEN TOSCHER
L AW O F F I C E S HOCHMAN SALKIN
TOSCHER PEREZ P.C.
9 1 5 0 WI LSHIRE BOULEVARD
SUI TE 3 0 0
BEVERLY HILLS, CA 90212-3414
310-281-3221
TOSCHER@TAXLITIGATOR.COM

